           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


      ADMINISTRATIVE COSTS CLAIMED
        BY THE COMMONWEALTH
            OF PUERTO RICO
  DISABILITY DETERMINATION PROGRAM


   March 2007         A-06-06-16117




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM
Date:      March 26, 2007                                                                  Refer To:

To:        Beatrice Disman
           Regional Commissioner
            New York

From:      Inspector General

Subject:   Administrative Costs Claimed by the Commonwealth of Puerto Rico Disability
           Determination Program (A-06-06-16117)


           OBJECTIVE
           Our objectives were to (1) determine whether costs claimed on the State Agency Report
           of Obligations for Social Security Administration (SSA) Disability Programs (SSA-4513)
           for the period October 1, 2003 through September 30, 2005 were allowable and
           properly allocated and funds were properly drawn; (2) evaluate Puerto Rico Disability
           Determination Program’s (PR-DDP) internal controls over the accounting and reporting
           of administrative costs; and (3) perform a limited review to assess the general security
           control environment.

           BACKGROUND
           The Disability Insurance (DI) program, established under Title II of the Social Security
           Act, provides benefits to wage earners and their families in the event the wage earner
           becomes disabled. SSA is responsible for implementing policies for the development of
           disability claims under the DI program. Disability determinations are performed by
           disability determination services (DDS) in each State, 1 Puerto Rico and the District of
           Columbia. Such determinations are required to be performed in accordance with
           Federal law and underlying regulations. 2 In carrying out its obligation, each DDS is
           responsible for determining claimants’ disabilities and ensuring that adequate evidence
           is available to support its determinations. To assist in making proper disability



           1
             “State” is used throughout our report to mean any of the 50 States of the United States, the District of
           Columbia, the Commonwealth of Puerto Rico, any territory or possession of the United States, or any
           agency or instrumentality of a State exclusive of local governments. Supplemental Security Income is
           not available to residents of Puerto Rico. Accordingly, the PR-DDP only makes disability determinations
           for applicants eligible under title II of the Social Security Act, or the Disability Insurance program.
           2
               42 U.S.C. § 421; 20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
Page 2 – Beatrice Disman


determinations, each DDS is authorized to purchase medical examinations, x-rays, and
laboratory tests on a consultative basis to supplement evidence obtained from the
claimants’ physicians or other treating sources.

SSA reimburses the DDS for 100 percent of allowable reported expenditures up to its
approved funding authorization. The DDS withdraws Federal funds through the
Department of the Treasury’s (Treasury) Automated Standard Application for Payments
system to pay for program expenditures. Funds drawn down must comply with Federal
regulations 3 and intergovernmental agreements entered into by Treasury and States
under the Cash Management Improvement Act of 1990. 4 An advance or
reimbursement for costs under the program must comply with Office of Management
and Budget Circular A-87, Cost Principles for State, Local, and Indian Tribal
Governments. At the end of each quarter of the Fiscal Year (FY), each DDS is required
to submit an SSA-4513 to account for program disbursements and unliquidated
obligations. 5 The SSA-4513 reports expenditures and unliquidated obligations for
Personnel Service Costs, Medical Costs, Indirect Costs, and All Other Nonpersonnel
Costs. The Scope and Methodology of our review is provided in Appendix B.

PR-DDP is a component of the Puerto Rico Department of the Family (PR-DF) and is
located in San Juan, Puerto Rico. PR-DF maintains PR-DDP’s official accounting
records used to prepare the SSA-4513. As of September 30, 2006, PR-DDP reported
program disbursements and unliquidated obligations on the SSA-4513 as shown below.


                           Amounts Reported as Disbursements and
                             Unliquidated Obligations for PR-DDP

                           Reporting Item               FY 2004             FY 2005

                   Disbursements
                     Personnel                           $7,970,166          $8,299,394
                     Medical                              3,773,215           3,929,167
                     Indirect Costs                         967,681           1,004,473
                     Other Nonpersonnel                   1,395,105           1,568,866
                   Total Disbursements                  $14,106,167         $14,801,900
                   Unliquidated Obligations                $465,323            $641,927
                   Total Obligations                    $14,571,490         $15,443,827



3
    31 C.F.R. § 205.1 et seq.
4
    Pub. L. No. 101-453, in part amending 31 U.S.C. §§ 3335, 6501 and 6503.
5
  SSA, Program Operations Manual System (POMS), DI 39506.201 and 202. POMS DI 39506.200 B.4
provides, in part, that “Unliquidated obligations represent obligations for which payment has not yet been
made. Unpaid obligations are considered unliquidated whether or not the goods or services have been
received.”
Page 3 – Beatrice Disman


RESULTS OF REVIEW

For FYs 2004 and 2005, PR-DDP disbursements charged to SSA were allowable and
properly allocated, and funds were properly drawn. PR-DDP had effective internal
controls over the accounting and reporting of administrative costs. However, we found
that PR-DDP did not timely resolve its unliquidated obligations totaling $465,323 in
FY 2004 and $641,927 in FY 2005; maintenance of inventory did not comply with SSA’s
POMS; and PR-DDP’s general security control environment was effective, except for
three physical security controls, which are discussed below.

UNLIQUIDATED OBLIGATIONS

PR-DDP did not resolve unliquidated obligations timely. As of September 30, 2006,
outstanding unliquidated obligations were $465,323 for FY 2004 and $641,927 for
FY 2005. Unliquidated obligations consisted primarily of consultative examinations
(CE), Medical Evidence of Record (MER), and applicant travel costs. According to SSA
policy,

         Valid unliquidated obligations should be supported by records that describe the
         nature of the obligations and support the amounts recorded. It is particularly
         important that changes in CE and MER authorizations (e.g., cancellation or
         modification) are reflected in the unliquidated obligations reported by the
         agency. State agencies should review unliquidated obligations at least once
         each month to cancel those no longer valid and screen CE authorizations to
         determine whether the unliquidated obligation represents an authorization still
         in effect.… States must submit a separate quarterly report by line item for each
         open fiscal year’s obligations as long as obligations remain unliquidated. The
         status of unliquidated obligations—including an explanation of why unliquidated
         obligations remain—should be given in a narrative statement accompanying
         the report. 6

PR-DDP did not review unliquidated obligations at least once each month to cancel
those that were no longer valid and did not provide the status of unliquidated obligations
in a narrative statement accompanying the SSA-4513 for each quarter.

PR-DDP provided two reasons for this condition: (1) missed CE appointments were left
as unliquidated obligations even after the appointments had been re-scheduled,
creating additional obligations; and (2) a system upgrade error changed the coding on
CE and MER obligations from paid to unliquidated. In both of these situations, the
unliquidated obligations were no longer valid. In addition, when CEs were unliquidated,
the attached applicant travel obligation also remained unliquidated instead of being
cancelled. PR-DDP is aware of this problem and has provided a plan to deobligate the
invalid obligations and provide narrative reports. Additionally, the PR-DDP received a
system upgrade in October 2006 that is designed to ensure that coding for CE and MER
obligations is no longer incorrectly changed from paid to unliquidated.

6
    SSA, POMS, DI 39506.203
Page 4 – Beatrice Disman


INVENTORY

PR-DDP's inventory database lacked essential information required by SSA policy. The
equipment inventory must include, for each item, the following information: description,
source of funds used in purchase (State or Federal), unit cost (applicable for State
purchases only), inventory or serial number, date purchased, and physical location,
including building address and room or floor location. 7 PR-DDP maintains inventory
lists for electronic data processing equipment, laptops, and general inventory. The
electronic data processing equipment and laptop lists were missing dates purchased
and the general inventory had incomplete physical locations, and dates purchased. In
addition, PR-DDP did not always update inventory listings to remove disposed items.
For example, a sample item on the active inventory with a purchase price of $14,165
was not located because it had been disposed without being removed from the
inventory list. Proper equipment accountability reduces the risk of loss or theft. During
our audit, PR-DDP initiated action to add the missing inventory information and plans to
complete an update of its inventory by February 2007.

SECURITY CONTROLS

During our review, we identified three general security control weaknesses. SSA
guidance instructs that if a DDS is unable to meet a guideline for physical security, a
risk assessment plan should be prepared. 8

The following security control weaknesses were identified.

•     PR-DDP conducted fire drills only once a year. SSA policy indicates that evacuation
      drills should be conducted twice yearly. 9

•     PR-DDP’s doors were constructed of thick glass in aluminum frames, creating a risk
      of unauthorized access. According to SSA guidance, perimeter doors should be
      made of solid wood core or metal sheathed. 10 PR-DDP has compensating controls,
      such as round the clock building security; however, a required risk assessment plan
      was not prepared 11 to establish whether sufficient controls were in place.

•     The computer room walls did not extend above the suspended (drop) ceiling to
      prevent unauthorized entry from above. According to SSA policy,



7
    SSA, POMS, DI 39530.020.
8
    SSA, POMS DI 39566.010 A.
9
    SSA, POMS DI 39566.010 B.4.c.
10
     SSA, POMS DI 39566.010 B.1.a.
11
     SSA, POMS DI 39566.010 A.
Page 5 – Beatrice Disman

          The walls of the computer room should have slab-to-slab construction to prevent
          unauthorized entry or the computer room must be made secure by installing
          chain link fences, heavy wire mesh, or motion sensor devices in the space
          between the false ceiling and the true ceiling of the facility. 12

      A risk assessment plan 13 was not prepared to establish whether sufficient controls
      exist in the computer room.

Inadequate security controls increase vulnerabilities to employee safety and the
potential for property and/or information loss.

CONCLUSION AND RECOMMENDATIONS

PR-DDP costs claimed on the SSA-4513 for the period October 1, 2003 through
September 30, 2005 were allowable and properly allocated, and funds were properly
drawn. We determined internal controls over the accounting and reporting of
administrative costs were sufficient; however, unliquidated obligations totaling $465,323
in FY 2004 and $641,927 in FY 2005 were not resolved timely. In addition, we found
PR-DDP inventory was not in compliance with POMS and we identified general security
control weaknesses.

Accordingly, we recommend SSA:

1. Ensure unliquidated obligations totaling $465,323 in FY 2004 and $641,927 in
   FY 2005 are reviewed and obligations no longer valid are deobligated.

2. Ensure unliquidated obligations for all open years are reviewed at least once each
   month to cancel those no longer valid and instruct PR-DDP to submit a narrative
   statement accompanying each quarterly SSA-4513 to explain unliquidated
   obligations.

3. Instruct the PR-DDP to maintain proper equipment inventories in compliance with
   POMS.

4. Instruct the PR-DDP to comply with SSA guidance for the general security controls
   and to correct control weaknesses in a timely manner.

5. Ensure that when PR-DDP is unable to meet a guideline for physical security, a risk
   assessment plan is prepared in a timely fashion, in accordance with SSA guidance.




12
     SSA, POMS DI 39566.010 B.2.l.
13
     SSA, POMS DI 39566.010 A.
Page 6 – Beatrice Disman


AGENCY COMMENTS
SSA agreed with our recommendations. SSA finds the five recommendations outlined
in the report are reasonable and will assist SSA in further improving the controls that are
already in place. See Appendix C for the full text of the Agency’s comments.

STATE AGENCY COMMENTS
The PR-DF demonstrated its agreement with our findings by correcting or initiating
corrective action to address all recommendations. See Appendix D for the full text of
the PR-DF’s comments.

OIG RESPONSE

We appreciate the comments received from SSA and PR-DF and believe the responses
and planned actions adequately address our recommendations.




                                                 Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments

APPENDIX D – State Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                            Appendix A

Acronyms

CE         Consultative Examination
C.F.R.     Code of Federal Regulations
DDS        Disability Determination Services
DI         Disability Insurance
FY         Fiscal Year
MER        Medical Evidence of Record
POMS       Program Operations Manual System
PR-DDP     Puerto Rico Disability Determination Program
PR-DF      Puerto Rico Department of Family
SSA        Social Security Administration
SSA-4513   State Agency Report of Obligations for Social Security
           Administration Disability Programs
Treasury   Department of the Treasury
U.S.C.     United States Code
                                                                      Appendix B

Scope and Methodology
We reviewed the administrative costs the Puerto Rico Disability Determination Program
(PR-DDP) reported to the Social Security Administration (SSA) on State Agency Report
of Obligations for SSA Disability Programs (SSA-4513) for the period October 1, 2003
through September 30, 2005. We obtained sufficient evidence to evaluate
administrative costs in terms of their allowability and allocability under Office of
Management and Budget Circular A-87, Cost Principles for State, Local and Indian
Tribal Governments, and appropriateness, as defined by SSA’s Program Operations
Manual System (POMS). PR-DDP reported total obligations of $14,571,490 in Fiscal
Year (FY) 2004 and $15,443,827 in FY 2005, as of September 2006.

To accomplish our audit objectives, we

•   Reviewed applicable Federal laws and regulations, pertinent parts of SSA’s POMS
    and other instructions pertaining to administrative costs incurred by PR-DDP and the
    drawdown of SSA funds.

•   Obtained data from Puerto Rico’s Department of the Family (PR-DF) to support
    amounts reported on the SSA-4513 and tested the reliability of the data by
    comparing disbursements, by category and in total, with amounts reported on the
    SSA-4513.

•   Reconciled the amount of Federal funds drawn for support of program operations to
    the allowable expenditures.

•   Reconciled the accounting records to the costs reported on the SSA-4513 for
    FYs 2004 and 2005.

•   Interviewed staff from SSA, PR-DF, and PR-DDP.

•   Documented our understanding of the PR-DF’s system of internal controls over the
    accounting and reporting of administrative costs.

•   Reviewed controls over active inventory of selected PR-DDP equipment.

•   Conducted limited general control testing related to physical access security and
    security within the PR-DDP.




                                           B-1
•   Selected a random sample of Personnel, Medical, and Non-personnel costs.

     Reviewed a sample of 50 employees from 1 pay period in January 2005 and
      traced information to accounting records, timesheets, and personnel files.

     Selected all 26 medical consultants on the PR-DDP staff paid during the pay
      period of November 2004 to determine whether the consultants were licensed
      and if payments to the consultants complied with the terms of their employment
      contract.

     Sampled medical cost payments for Medical Evidence of Record payments and
      reviewed a sample of the batch with the highest amount paid for each year under
      review, which included 44 transactions in FY 2004 and 49 transactions in
      FY 2005.

     Sampled medical cost payments for consultative examination payments and
      reviewed a statistical sample of 40 transactions for FY 2004 and 41 transactions
      for FY 2005.

     Reviewed a sample of Other Nonpersonnel Cost payments, including
      54 transactions from FY 2004 and 51 from FY 2005.

•   Evaluated the indirect cost rates claimed by PR-DDP for FYs 2004 and 2005 and the
    corresponding indirect cost rate agreements.

The entity audited was the PR-DDP under the Deputy Commissioner for Disability and
Income Security Programs, Center for Disability Programs. We conducted our field
work from May 2006 through January 2007 at the PR-DF and PR-DDP in San Juan,
Puerto Rico, and the Office of the Inspector General in Dallas, Texas. We conducted
the audit in accordance with generally accepted government auditing standards




                                          B-2
                  Appendix C

Agency Comments
                               SOCIAL SECURITY

MEMORANDUM                                                                 Refer To: S2D2G5

Date:      March 6, 2007

To:        Inspector General

From:      Regional Commissioner
           New York

Subject:   Administrative Costs Claimed by the Commonwealth of Puerto Rico Disability
           Determination Program (A-06-06-16117) – REPLY


I appreciate the opportunity to review the attached draft report. I am pleased that the Puerto
Rico Disability Determination Program was found to have effective internal controls over the
accounting and reporting of administrative costs and that all disbursements charged to the Social
Security Administration were allowable and properly allocated and that funds were properly
drawn.

I find that the five recommendations outlined in the draft report are reasonable and will assist us
in further improving the controls that are already in place.

If members of your staff have any questions concerning this correspondence, they may be
directed to Gene Purk, (212) 264-7283 in the Center for Disability.




                                                             /s/

                                                      Beatrice M. Disman
                        Appendix D

State Agency Comments
D-1
D-2
D-3
                                                                        Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Paul Davila, Director, (214) 767-6317

   Paul Wood, Audit Manager, (214) 767-0058

Acknowledgments
In addition to those named above:

   Clara Soto, Auditor-in-Charge

   Erica Turon, Auditor

For additional copies of this report, please visit our web site at http://ww.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-06-06-16117.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
